App. 1
United States Court of Appeals
for the Fifth Circuit

No. 21-10127
Summary Calendar

Carol M. Kam,
Plaintiff—Appellant,
versus
John B. Peyton, Jr.,
Defendant—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CV-1447

(Filed Jun. 24, 2021)
Before Clement, Higginson, and Engelhardt, Circuit
Judges.
Per Curiam:*
This is Carol Kam’s second appeal of the district
court’s dismissal of her claims against the state judge
* Pursuant to 5th Circuit Rule 47.5, the court has deter­
mined that this opinion should not be published and is not prece­
dent except under the limited circumstances set forth in 5th
Circuit Rule 47.5.4.

App. 2
who presided over her brother’s probate. This court
previously affirmed the district court’s dismissal pur­
suant to the Rooker-Feldman doctrine. Kam v. Peyton,
773 F. App’x 784 (5th Cir. 2019) (per curiam), cert, de­
nied, 140 S. Ct. 494 (2019) (mem.). Kam then moved to
vacate the Rooker Feldman dismissal under Federal
Rule of Civil Procedure 60(b). The district court denied
Kam’s Rule 60(b) motion as untimely and otherwise
meritless. See Fed. R. Civ. P. 60(c); Bailey v. Ryan Ste­
vedoring Co., 894 F.2d 157, 160 (5th Cir. 1990); Carter
v. Dolce, 741 F.2d 758, 759 (5th Cir. 1984). Kam filed
this pro se appeal. Upon review of the party’s briefs,
the district court’s opinion, the applicable law, and the
entire record, we affirm for substantially the same rea­
sons stated in the district court’s opinion and order.
AFFIRMED.

App. 3
United States Court of Appeals
for the Fifth Circuit
No. 21-10127
Summary Calendar
Carol M. Kam,
Plaintiff—Appellant,
versus
John B. Peyton, Jr.,
Defendant—Appellee.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CV-1447

Before Clement, Higginson, and Engelhardt, Circuit
Judges.
JUDGMENT
(Filed Jun. 24, 2021)
This cause was considered on the record on appeal
and the briefs on file.
IT IS ORDERED and ADJUDGED that the judg­
ment of the District Court is AFFIRMED.

App. 4
IT IS FURTHER ORDERED that plaintiff-appel­
lant pay to defendant-appellee the costs on appeal to
be taxed by the Clerk of this Court.

App. 5
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
CAROL M. RAM,

§
§

Plaintiff,
VS.

§ Civil Action No.
§ 3:18-CV-1447-D

JOHN B. PEYTON, JR.,

§

Defendant. §
MEMORANDUM OPINION AND ORDER
(Filed Jan. 29, 2021)
Pro se plaintiff Carol Kam (“Kam”) moves for relief
from this court’s final judgment dismissing her action
against former Dallas County Associate Probate Judge
John B. Peyton (“Judge Peyton”), arising from probate
litigation following her brother’s death. For the rea­
sons that follow, the court denies the motion.1
I
The pertinent background facts that underlie
Kam’s claims are set forth in the October 11,2018 find­
ings, conclusions, and recommendations of the magis­
trate judge, adopted by this court on December 20,
2018. See Kam v. Peyton (“Kam 7”), 2018 WL 6696499,
at *1 (N.D. Tex. Dec. 20, 2018) (Fitzwater, J.), aff’d, 773
Fed. Appx. 784 (5th Cir. 2019). The court therefore
1 It is not clear whether Kam has served her motion on Judge
Peyton. No response has been filed to the motion.

App. 6
recounts only the relevant procedural history and facts
necessary for today’s decision.
Judge Peyton presided over a trial to decide a will
contest filed by Kam in Dallas Probate Court in July
2013, ruled against her, and ordered her to pay attor­
ney’s fees and costs of over $200,000. Judge Peyton
later denied her motion for new trial, the Texas Court
of Appeals2 affirmed the ruling, the probate court de­
nied her statutory bill of review, and the Texas Court
of Appeals affirmed that denial. The Supreme Court of
Texas denied her petition for review, and Kam then
filed this action.
In Kam I Kam sued Judge Peyton under 42 U.S.C.
§ 1983 for various constitutional violations. In short,
she maintained that Judge Peyton lacked jurisdiction
to preside over the probate action or rule on her motion
for a new trial. Judge Peyton moved to dismiss this ac­
tion, and the court granted the motion, entering a final
judgment on December 20, 2018 dismissing this case
without prejudice. See Kam /, 2018 WL 6696499, at *1.
The court of appeals affirmed. Kam now moves to va­
cate the December 20, 2018 judgment granting Judge
Peyton’s motion to dismiss, which the court entered af­
ter adopting the magistrate judge’s findings, conclu­
sions, and recommendation.

2 The Court of Appeals for the Fifth District of Texas at Dal­
las .

App. 7
II
Under Rule 60(b), a court may relief a party from
final judgment because of
(1) mistake, inadvertence, surprise, or excusa­
ble neglect; (2) newly discovered evidence
that, with reasonable diligence, could not
have been discovered in time to move for a
new trial under Rule 59(b); (3) fraud (wither
previously called intrinsic or extrinsic), mis­
representation, or misconduct by an opposing
party; [or] ... (6) any other reason justifying
relief from the operation of the judgment.
To the extent that Kam moves for relief under
Rule 60(b)(1), (2) or (3), the motion is untimely. Accord­
ing to Rule 60(b)(c), a motion for relief under Rule 60(b)
for reasons (1), (2), or (3) must be made no more than
a year after the entry of the judgment at issue. In Kam
I the court granted Judge Peyton’s motion to dismiss
and entered judgment in his favor on December 20,
2018. Kam filed the instant motion nearly two years
later, on October 14, 2020.
Kam’s motion pursuant to Rule 60(b)(6) is also
without merit. Rule 60(b)(6) relief “will be granted only
if extraordinary circumstances are present.” Bailey v.
Ryan Stevedoring Co., 894 F.2d 157,160 (5th Cir. 1990)
(affirming order denying Rule 60(b)(6) motion based on
change in federal law). Moreover, a party is not entitled
to relitigate its claims through a Rule 60(b)(6) motion.
See, e.g.,Evenson v. Sprint/United Mgmt. Co., 2011WL
3702627, at *5 (N.D. Tex. Aug. 23, 2011) (Fitzwater,
C.J.) (citing Carter v. Dolce, 741 F.2d 758, 759 (5th Cir.

App. 8
1984) (affirming denial of Rule 60(b) motion where
plaintiff had previously litigated or had the oppor­
tunity to litigate the same claims)).
Kam has not met her burden of demonstrating
that extraordinary circumstances exist. She maintains
that she is entitled to relief from the judgment because
Judge Peyton did not have jurisdiction to enter his or­
ders, and, according to her, the Dallas Probate Court,
the Texas Court of Appeals, and the Supreme Court of
Texas have revised their opinions to align with Kam’s
position. The court rejected these arguments in Kam I,
and she is not entitled to relitigate the case using Rule
60(b)(6).
For the reasons explained, Kam’s October 14,2020
motion for this court to vacate the prior order dated
December 20, 2018 is denied.
SO ORDERED.
January 29, 2021.
/s/ Sidney A. Fitzwater
SIDNEY A. FITZWATER
SENIOR JUDGE

App. 9
FILE COPY
RE: Case No. 20-0490 DATE: 10/2/2020
COA#: 05-19-01293-CV TC#: PR-11-01368-3
STYLE: RAM v. RAM
Today the Supreme Court of Texas denied the pe­
tition for review, in the above-referenced case.
MS. CAROL M. RAM
* DELIVERED VIA E-MAIL *

App. 10
Order entered June 9, 2020
[SEAL]
In The
Court of Appeals
Fifth District of Texas at Dallas

No. 05-19-01293-CV
CAROL M. KAM, Appellant
V.
DAVID J. KAM, TRUSTEE FOR
THE ROBERT S. KAM TRUST, Appellee

On Appeal from the Probate Court No. 3
Dallas County, Texas
Trial Court Cause No. PR-11-01368-3

ORDER
Before Justices Whitehill, Molberg, and Nowell
(Filed Jun. 9, 2020)
Before the Court is appellant’s May 26, 2020 mo­
tion to reopen the appeal. We construe the motion as a
motion for rehearing and DENY the motion.
/s/ ERIN A. NOWELL
JUSTICE

App. 11
Order entered May 12, 2020
[SEAL]
In The
Court of Appeals
Fifth District of Texas at Dallas
No. 05-19-01293-CV
CAROL M. RAM, Appellant
V.
DAVID J. KAM, TRUSTEE FOR
THE ROBERT S. KAM TRUST, Appellee

On Appeal from the Probate Court No. 3
Dallas County, Texas
Trial Court Cause No. PR-11-01368-3

ORDER
Before Justices Whitehill, Molberg, and Nowell
(Filed May 12, 2020)
Before the Court are appellee’s motion for rehear­
ing and appellant’s response. In her response, appel­
lant asks not only that the motion for rehearing be
denied but also that our opinion be modified to include
certain language.

App. 12
We DENY the motion for rehearing. We further
DENY appellant’s request to modify the opinion.
/s/ ERIN A. NOWELL
JUSTICE

App. 13
CASE NO. PR-11-1368-3
THE ESTATE OF
ROBERT S. RAM,
DECEASED

§ PROBATE COURT NO. 3
§
§
§ DALLAS COUNTY, TEXAS

ORDER DENYING CONTESTANT’S
VERIFIED MOTION FOR NEW TRIAL
AND IN THE ALTERNATIVE MOTION
TO MODIFY THE JUDGMENT
(Filed May 7, 2020)
On May 7, 2020 the Court, after considering the
recommendation of the Associate Judge to Deny the
Contestant’s Verified Motion for New Trial and in the
Alternative Motion to Modify the Judgment (the “Mo­
tions”) the Court adopts the recommendation and con­
cludes denying the Motions.
IT IS THEREFORE ORDERED the adoption of
the Associate Judge’s recommendation and FURTHER
ORDERS that Contestants’ Verified Motion for New
Trial and in the Alternative Motion to Modify the
Judgment be, and hereby D.
SO ORDERED on this 7th day of May, 2020.
/s/ Margaret Jones-Johnson
Margaret Jones-Johnson
Presiding Judge
Dallas County Probate
Court No. 3

App. 14
DISMISSED; Opinion Filed April 10, 2020
[SEAL]
In The
Court of Appeals
Fifth District of Texas at Dallas

No. 05-19-01293-CV
CAROL M. KAM, Appellant
V.
DAVID J. KAM, TRUSTEE FOR
THE ROBERT S. KAM TRUST, Appellee
On Appeal from the Probate Court No. 3
Dallas County, Texas
Trial Court Cause No. PR-11-01368-3

MEMORANDUM OPINION
Before Justices Whitehill, Molberg, and Nowell
Opinion by Justice Nowell
(Filed Apr. 10, 2020)
This appeal, filed October 22, 2019, challenges the
(1) August 9, 2013 final judgment overruling Carol
Kam’s contest to her brother’s will and (2) October 16,
2013 order denying Kam’s motion for new trial and

App. 15
alternative motion to modify judgment.1 Both were
signed by former Associate Probate Judge John Pey­
ton, Jr. after the parties agreed on the record that he
would decide all issues and any appeal would be taken
directly to this Court.
Because an appeal from a final judgment must
generally be filed within thirty days of judgment, we
questioned our jurisdiction over the appeal and di­
rected Kam to file a letter brief addressing our concern.
See Tex. R. App. P. 26.1. Kam complied, agreeing we
lack jurisdiction but for a different reason - the appel­
late deadlines have not been triggered because the
judge of the referring court, Probate Court No. 3, has
not signed the judgment.2 Kam is correct.
Chapter 54A, subchapter C of the Texas Govern­
ment Code governs the appointment and use of associ­
ate judges in probate cases. See Tex. Gov’t Code Ann.
Ch. 5^4A, subch. C. Under section 54A.209(a)(17), the
associate judge may sign a final order that includes a
waiver of the right to a de nova hearing before the re­
ferring court. See id. § 54A.209(a)(17). However, the
judgment does not become the judgment of the refer­
ring court, and the appellate deadlines are not trig­
gered, until the judge of the referring court signs the
judgment. See id. §§ 54A.214(b), 54A.217(b).

1 The contest and motion were also filed by Kam’s nephew.
He is not a party to this appeal.
2 Although given an opportunity to respond, appellee has not
filed a response.

App. 16
The final judgment here was signed by the asso­
ciate judge but not the judge of the referring court.
While the associate judge may have decided all is­
sues and the parties may have agreed to appeal di­
rectly to this Court, the judgment is not appealable
until the judge of the referring court has signed it. See
id. §§ 54A.214(b), 54A.217(b). Accordingly, we lack ju­
risdiction and dismiss the appeal and any pending mo­
tions. See Tex. R. App. P. 42.3(a).
/Erin A. Nowell/
ERIN A. NOWELL
JUSTICE

App. 17
[SEAL]
Court of Appeals
Fifth District of Texas at Dallas
JUDGMENT
(Filed April 10, 2020)
CAROL M. KAM, Appellant
No. 05-19-01293-CV

V.

DAVID J. KAM, TRUSTEE
FOR THE ROBERT S. KAM
TRUST, Appellee

On Appeal from the
Probate Court
No. 3, Dallas County, Texas
Trial Court Cause No.
PR-11-013683.
Opinion delivered by
Justice Nowell, Justices
Whitehill and Molberg
participating.

In accordance with this Court’s opinion of this
date, we DISMISS the appeal.
We ORDER that appellee David J. Kam, Trustee
for The Robert S. Kam Trust, recover his costs, if any,
of this appeal from appellant Carol M. Kam.
Judgment entered this 10th day of April, 2020.

App. 18
Order entered April 10, 2020
[SEAL]
In The
Court of Appeals
Fifth District of Texas at Dallas

No. 05-19-01462-CV
IN RE CAROL M. KAM

On Appeal from the Probate Court No. 3
Dallas County, Texas
Trial Court Cause No. PR-11-01368-3

ORDER
(Filed April 10, 2020)
Based on the Court’s opinion of this date, we
DENY the petition for writ of mandamus. We ORDER
Carol M. Kam to bear the costs of this original proceed­
ing.
/a/ ERIN A. NOWELL
JUSTICE

App. 19
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-11657
Summary Calendar.
CAROL M. RAM,
Plaintiff-Appellant
v.
JOHN B. PEYTON, JR.,
Defendant-Appellee
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CV-1447
(Filed Jul. 18, 2019)
Before JONES, HIGGINSON, and OLDHAM, Circuit
Judges.
PER CURIAM:*
This is an appeal from a district’s court dismissal,
pursuant to the Rooker-Feldman doctrine, of the Appel­
lant’s claims relating to a probate matter that was fully
litigated, decided, and upheld in Texas state courts.
* Pursuant to 5th Cir. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5th Cir. R. 47.5.4.

App. 20
The Appellant filed a variety of pro se claims under 42
U.S.C. § 1983 against the state judge who presided
over the original probate matter, predicated upon the
Appellant’s theory that the judge was without jurisdic­
tion to preside over the dispute. The district court,
upon the recommendation of a magistrate judge, char­
acterized the Appellant’s claims as a thinly-veiled col­
lateral attack on the state courts’ final judgment and
dismissed the claims under the Rooker-Feldman doc­
trine as articulated by this court in Phinizy v. State of
Ala., 847 F.2d 282, 284 (5th Cir. 1988). After a careful
review of the parties’ briefs, the district, court’s deci­
sion, and applicable case law, this court AFFIRMS the
district court’s decision for substantially the same rea­
sons articulated in the magistrate’s Findings, Conclu­
sions, and Recommendation and adopted by the
district court in that case.

App. 21
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHER DISTRICT OF TEXAS
DALLAS DIVISION
CAROL M. KAM,

§
§

Plaintiff,

§ Civil Action No.
§ 3:18-CV-1447-D.

VS.
JOHN B. PEYTON, JR.,
Defendant.

§
§
§

ORDER
(Filed Dec. 20, 2018)
After making an independent review of the plead­
ings, files, and records in this case, the October 11,
2018 findings, conclusions, and recommendation of the
magistrate judge, and plaintiff’s October 23, 2018 ob­
jections, the court concludes that the findings and con­
clusions are correct. It is therefore ordered that
plaintiff’s objections are overruled, and the findings,
conclusions, and recommendation of the magistrate
judge are adopted. All pending motions are denied, and
this action is dismissed without prejudice by judgment
filed today.
SO ORDERED.
December 20, 2018.
/s/ Sidney A. Fitzwater
SIDNEY A. FITZWATER
SENIOR JUDGE

App. 22
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
Carol M. Kam,
Plaintiff,
V.
John B. Peyton, Jr.,
Defendant.

§
§

§ Case No.
§ 3:18-cv-1447-D-BK
§
§

Findings, Conclusions And Recommendation
Of The United States Magistrate Judge
(Filed Oct. 11, 2018)
Pursuant to the district judge’s Order ofReference,
Doc. 9, and 28 U.S.C. § 636(b), Defendant's Motion to
Dismiss, Doc. 8, has been referred to the undersigned
United States magistrate judge for a recommended
disposition. For the reasons stated herein, Defendant’s
motion should be GRANTED.
A. Background
Plaintiff Carol Kam brings this pro se action
against former Dallas County Associate Probate
Judge John B. Peyton (“Judge Peyton”), arising from
the protracted probate litigation that ensued after
the death of her brother Robert Kam (the “Probate Pro­
ceeding”).1 Doc. 3 at 1. Plaintiff alleges that in Febru­
ary 2011, after being diagnosed with cancer, Robert
For clarity, the Court refers to Robert Kam by his first
name.

App. 23
created a trust for his estate (the “Original Trust”).
Doc. 3 at 2. Under the terms of the Original Trust,
Plaintiff was to receive a $10,000 inheritance. Doc. 3 at
2. Plaintiff avers that in March 2011, Robert’s girl­
friend, with the aid of her attorney, David Pyke (“Attor­
ney Pyke”), made changes to the Original Trust
(hereafter, the “Amended Trust”). Doc. 3 at 2-3. When
it was discovered that the provision providing for
Plaintiff’s inheritance had been removed, Attorney
Pyke drafted a second amendment restoring Plaintiff’s
inheritance, which was subsequently signed by Robert
(the “Second Amended Trust”). Doc. 3 at 3. However,
following Robert’s death, Attorney Pyke instructed the
trustee not to distribute to Plaintiff the sum she was
to receive. Doc. 3 at 3.
Consequently, Plaintiff filed a will contest in Dal­
las Probate Court, seeking to uphold the Original
Trust. Doc. 3 at 4. The case was assigned to Probate
Court Judge Michael Miller and subsequently trans­
ferred to Judge Peyton for trial in July 2013, during
which Robert’s testamentary capacity at the time he
executed the Amended Trust was contested. Doc. 3 at
4. Judge Peyton found, inter alia, that the Original
Trust was unenforceable and taxed attorneys’ fees and
court costs against Plaintiff for over $220,000. Doc. 3
at 5, 15. In October 2013, Judge Peyton also presided
over the hearing on Plaintiff’s motion for a new trial
and ruled against her. Doc. 3 at 7-8. Judge Peyton’s rul­
ing was affirmed on appeal, and Plaintiffs statutory
bill of review was denied in November 2015. Doc. 8-4
at 2. The Fifth Court of Appeals subsequently affirmed

App. 24
the denial of the bill of review. Doc. 8-4 at 8; In the Es­
tate ofKam, No. 05-16-00126-CV, 2016 WL 7473905
(Tex. App.—Dallas 2016, pet. denied). Finally, in March
2017, the Supreme Court of Texas denied Plaintiff's
petition for review. Plaintiff subsequently filed the in­
stant action.2
Plaintiff has sued Judge Peyton pursuant to 42
U.S.C. § 1983 for various constitutional violations, ar­
guing that Judge Peyton did not have jurisdiction to
preside over the Probate Proceeding or rule on her mo­
tion for a new trial and, thus, has lost his right to judi­
cial immunity. Doc. 3 at 7-10. She seeks over $5 million
in damages. Doc. 3 at 11-12.
B. Parties’ Arguments
Judge Peyton now moves to dismiss Plaintiffs com­
plaint arguing, inter alia, that the Rooker-Feldman
doctrine3 divests this Court of jurisdiction to hear her
claims. Doc. 8 at 4, 8-9. Plaintiff responds, in relevant
part, that the Rooker-Feldman doctrine does not apply
2 The Court notes that Plaintiff has filed at least two prior
cases in this Court challenging the Probate Proceeding. See Kara
v. Jenkins, etal., No: 3:17-CV-03469-L; Kam v. Dallas Cty., etal.,
No. 3:18-CV-0378-G-BK. Plaintiff voluntarily dismissed the first
action without prejudice, and judgment was entered against her
in the second action. 2018 WL 2979469 (N.D. Tex. May 29, 2018)
(Toliver, J.), adopted by 2018 WL 2951010 (N.D Tex. June 12,
2018) (Fish, J.). Her appeal of that judgment is pending. Kam v.
Dallas Cty., No. 18-10735 (5th Cir.).
.3 The doctrine takes its name from two Supreme Court deci­
sions: D.C. Court ofAppeals v. Feldman, 460 U.S. 462 (1983), and
Rooker v. Fidelity TV. Co., 263 U.S. 413 (1923).

App. 25
because Judge Peyton had no authority to preside over
the Probate Proceeding. Doc. 10 at 11. Upon review,
Judge Peyton’s argument is well-founded and entirely
disposes of Plaintiff’s claims. As such, the Court need
not reach his absolute immunity and limitations argu­
ments.
C. Applicable Law and Analysis
A court must dismiss a case for lack of subject mat­
ter jurisdiction under Rule 12(b)(1) of the Federal
Rules of Civil Procedure if it lacks the statutory or con­
stitutional power to adjudicate the case. Home Builders Ass’n of Miss., Inc. v. City of Madison, Miss., 143
F.3d 1006,1010 (5th Cir. 1998). As the Court ofAppeals
for the Fifth Circuit has succinctly stated:
The Supreme Court has definitively estab­
lished, in what has become known as the
Rooker-Feldman doctrine, that “federal dis­
trict courts, as courts of original jurisdiction,
lack appellate jurisdiction to review, modify, or
nullify final orders of state courts.” “If a state
trial court errs the judgment is not void, it is
to be reviewed and corrected by the appropri­
ate state appellate court. Thereafter, recourse
at the federal level is limited solely to an ap­
plication for a writ of certiorari to the United
States Supreme Court.”
Weekly u. Morrow, 204 F.3d 613, 615 (5th Cir. 2000)
(quoting Liedtke v. State Bar of Tex., 18 F.3d 315, 317
(5th Cir. 1994)). Additionally, the Rooker-Feldman “ju­
risdictional bar is not limited to actions in federal court

App. 26
that explicitly seek review of a state court decision,
but also extends to those ‘in which the constitutional
claims presented .. . are inextricably intertwined with
the state court’s grant or denial of relief.’” Jordaan u.
Hall, 275 F. Supp. 2d 778, 788 (N.D. Tex. 2003) (quot­
ing Hale v. Harney, 786 F.2d 688, 691 (5th Cir. 1986)).
Claims are inextricably intertwined with a state
court’s judgment when “the District Court is in essence
being called upon to review the state court decision.”
Feldman, 460 U.S. at 482 n.16.
Plaintiff’s complains [sic] of the actions of the
judges involved in the Probate Proceeding and, though
cast as constitutional violations, her claims amount to
nothing more than a collateral attack on the judg­
ments entered in that proceeding. See Jordaan, 275
F. Supp. 2d at 788-89 (when a federal action “is noth­
ing more than a thinly veiled attempt to circumvent
the state appellate process and to collaterally attack in the guise of a federal civil rights action - the validity
of a state court [judgment] and other related orders,”
lower federal courts lack subject matter jurisdiction
over such action).
Plaintiff’s insistence that Rooker-Feldman does
not apply because she is not asking this Court to “mod­
ify, bypass, reverse, or void any State Judgment” is
unavailing. Doc. 10 at 11. As mentioned above, RookerFeldman not only bars explicit efforts to review state
court rulings, but also claims that are inextricably in­
tertwined therewith. Jordaan, 275 F. Supp. 2d at 788.
In the instant case, Plaintiff’s federal constitutional
claims are premised the alleged impropriety of the

App. 27
judges involved in the Probate Proceeding and are
thus inextricably intertwined with their rulings. See
Phinizy u. Stale of Ala., 847 F.2d 282, 284 (5th Cir.
1988) (plaintiff s claim that the probate court’s conduct
denied her due process was “obviously” inextricably in­
tertwined with the probate court’s judgment in the
state proceeding).
Such intertwining is made all the more apparent
by the relief that Plaintiff seeks in this case, to wit: (1)
her $10,000 inheritance; (2) reimbursement of her
$300,000 in litigation expenses; and (3) $400,000 stem­
ming from Judge Peyton’s imposition of costs and fees
against her. Doc. 3 at 11. To grant this relief, the Court
would have to reverse the judgment entered in the Pro­
bate Proceeding. See Magor v. GMAC Mortg., L.L.C.,
456 F. App’x 334,336 (5th Cir. 2011) (per curiam) (find­
ing plaintiff’s claims were inextricably intertwined
with state court judgment where reversal of the state
court judgment would be a necessary part of the relief
requested in the federal action); see also Wallace v. Her­
nandez, No. A-14-CV-691-LY, 2015 WL 1020720, at *2
(W.D. Tex. Mar. 9,2015) (finding plaintiffs’ claims were
barred by Rooker-Feldman where the “essential relief”
they sought was reversal of probate court’s rulings
against them), adopted by 2015 WL 12751504 (W.D.
Tex. Apr. 9, 2015), affd 631 F. App’x 257 (5th Cir. 2016)
(per curiam). Accordingly, Rooker-Feldman divests this
Court of subject-matter jurisdiction, and Plaintiff’s
claims should be dismissed without prejudice.

App. 28
D. Leave to Amend
Ordinarily, a pro se plaintiff should be granted
leave to amend her complaint prior to dismissal. How­
ever, leave to amend is not required when plaintiff “has
already pleaded [her] best case.’” Brewster v. Dretke,
587 F.3d 764, 767-68 (5th Cir. 2009) (quotation omit­
ted). As discussed herein, Plaintiffs claims are fatally
infirm and duplicative of previous, unsuccessful claims
filed in this Court. Thus, granting her leave to amend
under these circumstances would be futile and cause
needless delay.
E. Conclusion
For the foregoing reasons, Defendant's Motion to
Dismiss, Doc. 8, should be GRANTED.
SO RECOMMENDED on October 11, 2018.
/s/ Renee H. Toliver
RENEE HARRIS TOLIVER
UNITED STATES
MAGISTRATE JUDGE

INSTRUCTIONS FOR SERVICE AND
NOTICE OF RIGHT TO APPEAL/OBJECT
A copy of this report and recommendation will be
served on all parties in the manner provided by law.
Any party who objects to any part of this report and
recommendation must file specific written objections
within 14 days after being served with a copy. See 28

App. 29
U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b). To be specific,
an objection must identify the finding or recommenda­
tion to which objection is made, state the basis for the
objection, and indicate the place in the magistrate
judge’s report and recommendation where the dis­
puted determination is found. An objection that merely
incorporates by reference or refers to the briefing be­
fore the magistrate judge is not specific. Failure to file
specific written objections will bar the aggrieved party
from appealing the factual findings and legal conclu­
sions of the magistrate judge that are accepted or
adopted by the district court, except upon grounds of
plain error. See Douglass v. United Services Automobile
Ass’n, 79 F.3d 1415, 1417 (5th Cir. 1996), modified by
statute on other grounds, 28 U.S.C. § 636(b)(1) (extend­
ing the time to file objections to 14 days).

App. 30
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 18-10735
Summary Calendar

CAROL M. KAM,
Plaintiff - Appellant
v.
DALLAS COUNTY; STATE OF TEXAS,
Defendants - Appellees

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CV-378

(Filed March 7, 2019)
Before STEWART, Chief Judge, and OWEN and OLD­
HAM, Circuit Judges.
PER CURIAM:*
Plaintiff-Appellant Carol M. Kam appeals the dis­
trict court’s dismissal of her claims for lack of subject
matter jurisdiction. We affirm.
i

* Pursuant to 5th Cie. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5th Cm. R. 47.5.4.

App. 31
I.
In the proceedings below, Kam brought a pro se ac­
tion in federal district court against the State of Texas
and Dallas County upon the conclusion of extended
probate litigation involving two will contest suits aris­
ing from the deaths of her brother and father. The first
will contest suit, as to Kam’s brother’s amended trust,
resulted in a judgment against Kam. The probate court
also found her in violation of the “no contest” provision
in her brother’s trust, resulting in revocation of her
benefits, i.e., her $10,000 inheritance. She was further
assessed with over $226,000 in attorney’s fees and
costs. The second will contest suit, as to Kam’s father’s
will, resulted in a judgment in her favor with an award
of costs.
The relief Kam sought in the federal district court
included: (1) a retrial of the first will contest suit to re­
move the “malicious judgment” entered against her;
(2) her $10,000 inheritance; and (3) reimbursement of
all litigation expenses she had incurred to date. Be­
cause granting relief would require the district court
to reverse the state court judgment entered in one of
the will contest suits, the district court found that it
was divested ofjurisdiction under the Rooker-Feldman
doctrine and dismissed Kam’s claims with prejudice.
II.
We review the district court’s application of the
Rooker-Feldman de novo. See III. Cent. R.R. Co. v. Guy,
682 F.3d 381, 390 (5th Cir. 2012).

App. 32
III.
“[The Rooker-Feldman] doctrine directs that fed­
eral district courts lack jurisdiction to entertain collat­
eral attacks on state court judgments.” See Liedtke v.
State Bar of Tex., 18 F.3d 315,317 (5th Cir. 1994). “Fur­
ther, in addition to the precise claims presented to the
state court,Rooker-Feldman prohibits federal court re­
view of claims that are ‘inextricably intertwined’ with
a state court decision.” Burciaga v. Deutsche Bank Nat’l
Trust Co., 871 F.3d 380,384-85 (5th Cir. 2017) (quoting
Dist. Ct of Columbia Appeals v. Feldman, 460 U.S. 462,
486-87(1983)).
On appeal, Kam argues that the State of Texas
and Dallas County: (1) failed to provide her with an
unbiased tribunal; (2) failed to provide her with proper
jurisdictional notice and authority; (3) failed to allow
her to depose certain witnesses; (4) failed to allow her
to provide opposing evidence; (5) failed to provide her
with a judgment' based on the evidence presented;
(6) failed to provide her with findings of fact and rea­
sons for judgment; (7) “failed to address the improper
use of the trial court as revenge”; and (8) permitted the
court system to be used in a malicious manner that de­
prived her of her inheritance and placed an unfair fi­
nancial burden on her.
We agree with the district court that the claims
Kam presents and the relief she seeks would require
reversal of one of the state court judgments in the pro­
ceedings below — the judgment in the first will con­
test suit. Consequently, we are barred from reviewing

App. 33
Kam’s claims and find no reversible error in the dis­
trict court’s conclusion that the Rooker-Feldman doc­
trine deprived it of jurisdiction to hear Kam’s claims.1
See Liedtke, 18 F.3d at 317; see also Burciaga, 871 F.3d
at 384-85 (observing that federal courts are prohibited
from reviewing “claims that are ‘inextricably inter­
twined’ with a state court decision”).
IV.
The district court’s judgment dismissing Kam’s
claims is affirmed.

1 To the extent, if any, that Kam appeals the district court’s
denial of her motion to amend her complaint, we hold that the
district court did not err in doing so on grounds of futility in that
all of Kam’s proposed amendments were also “inextricably inter­
twined” with the prior state court judgment. See Burciaga, 871
F.3d at 384-85.

App. 34
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
CAROL M. RAM,

)

Plaintiff,

)
)

VS.

)

DALLAS COUNTY,
ET AL.,
Defendants.

)

CIVIL ACTION NO.
3:18-CV-0378-G (BK)

)
)

ORDER ACCEPTING FINDINGS.
CONCLUSIONS. AND RECOMMENDATION OF
THE UNITED STATES MAGISTRATE JUDGE
(Filed Jun. 12, 2018)
The United States Magistrate Judge made find­
ings, conclusions, and a recommendation in this case.
Plaintiff filed objections, and the court has made a de
novo review of those portions of the proposed findings,
conclusions, and recommendation to which objection
was made. The objections are overruled, and the court
ACCEPTS the findings, conclusions, and recommen­
dation of the United States Magistrate Judge.
Plaintiff’s amended complaint (docket entry 34) is
STRICKEN from the docket, Dallas County’s motion
to dismiss (docket entry 29) is GRANTED, and the
State of Texas’ motion to dismiss (docket entry 24) is
TERMINATED AS MOOT.

App. 35
SO ORDERED.
June 12,2018.
/s/ A. Joe Fish
A. JOE FISH
Senior United States
District Judge

App. 36
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
CAROL M. RAM,

)

Plaintiff,

)
)

VS.

)

DALLAS COUNTY,
ET AL.,

)

CIVIL ACTION NO.
3:18^CV-0378-G (BK)

)

Defendants.

)

JUDGMENT
(Filed Jun. 12, 2018)
The court has entered its order accepting the find­
ings, conclusions, and recommendation of the United
States Magistrate Judge in this case.
It is ORDERED, ADJUDGED and DECREED
that:
1. Plaintiff’s amended complaint (docket entry
34) is STRICKEN from the docket, Dallas County’s
motion to dismiss (docket entry 29) is GRANTED, and
the State of Texas’ motion to dismiss (docket entry 24)
is TERMINATED AS MOOT, and plaintiff’s claims
are DISMISSED without prejudice.
2. The clerk shall transmit a true copy of this
judgment and the order accepting the findings and rec­
ommendation of the United States Magistrate Judge
to all parties.

App. 37
June 12, 2018.
/s/ A. Joe Fish
A. JOE FISH
Senior United States
District Judge

App. 38
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
CAROL M. RAM,
Plaintiff,

§
§

v.

§ Civil Action No.
3:18-CV-0378-G-BK

DALLAS COUNTY,
et al.,
Defendants.

FINDINGS, CONCLUSIONS AND
RECOMMENDATION OF THE
UNITED STATES MAGISTRATE JUDGE
(Filed May 29, 2018)
Pursuant to Special Order 3 and 28 U.S.C. § 636(b),
State of Texas* Motion to Dismiss, Doc. 24, and Dallas
County’s Motion to Dismiss, Doc. 29, have been referred
to the undersigned for a recommended disposition. For
the reasons stated herein, Dallas County’s motion
should be GRANTED IN PART, resulting in the dis­
missal of all of Plaintiff’s claims, and the State of
Texas’ motion should be DENIED AS MOOT.
I. BACKGROUND
Plaintiff Carol Kam brings this pro se action
against the State of Texas and Dallas County (the
“County”) (collectively “Defendants”) arising from the
probate litigation that ensued after the deaths of her

App. 39
brother, Robert Kam, and father, Charles Kam (the
“Probate Proceedings”).1
A. Litigation Regarding Robert Kam’s Estate
Plaintiff alleges that in February 2011, after being
diagnosed with pancreatic cancer, Robert created a
trust for his estate, over which Plaintiff’s brother, Da­
vid Kam, was named trustee (the “Original Trust”).
Doc. 3 at 6, 37. Under the terms of the Original Trust,
Plaintiff was to receive a $10,000.00 inheritance. Doc.
3 at 7. Plaintiff further alleges that in March 2011,
Robert’s girlfriend, with the aid of her attorney, David
Pyke (“Attorney Pyke”), made changes to the Original
Trust that were approved by David and Robert (the
“Amended Trust”). Doc. 3 at 8-9. When it was discov­
ered that the provision providing for Plaintiff’s inher­
itance had been removed, Attorney Pyke drafted an
amendment restoring Plaintiff’s inheritance, which was
subsequently signed by Robert (the “Second Amend­
ment”). Doc. 3 at 10-11. However, following Robert’s
death, David refused to distribute to Plaintiff the sum
she inherited. Doc. 3 at 11.
Consequently, Plaintiff and her nephew, Justin
Kam, who was also dissatisfied with his inheritance
under the Amended Trust, filed a will contest in Dallas
Probate Court No. 3, seeking to void the Amended
Trust and uphold the Original Trust (the “First Will
Contest”). Doc. 3 at 11. The case was assigned to Judge
1 For clarity, the Court refers to individuals with the sur­
name “Kam” by their first name.

App. 40
Michael Miller and subsequently transferred to Judge
John Peyton for trial in July 2013, during which Rob­
ert’s testamentary capacity at the time he executed
the Amended Trust was contested. Doc. 3 at 11-13.
Judge Peyton found, inter alia, that (1) Plaintiff and
Justin failed to meet their burden of proof on all
counts, (2) the Original Trust was unenforceable, and
(3) the contest was maintained in bad faith and with­
out probable cause. Doc. 3 at 48-49. Thus, pursuant to
the Amended Trust’s “no contest” provision, Judge Pey­
ton found that Plaintiff and Justin revoked all benefits
to which they would have been entitled under the
terms of the Amended Trust and Second Amendment.
Doc. 3 at 49. Judge Peyton also ordered Plaintiff and
Justin to pay attorneys’ fees and litigation expenses to­
taling $226,242.88. Doc. 3 at 49-51. Judge Peyton’s rul­
ing was affirmed on rehearing and in November 2015,
Judge Margaret Jones Johnson denied Plaintiff’s bill
of review.2 Doc. 3 at 14-16. The Fifth Court of Appeals
affirmed Judge Johnson’s denial. Doc. 3 at 16; see In re
Estate ofKam, No. 05-16-00126-CV, 2016 WL 7473905
(Tex. App. Dallas 2016, pet. denied). Finally, in March
2017, the Supreme Court of Texas denied Plaintiff’s
petition for review. Doc. 3 at 16.
B. Litigation Regarding Charles Kam’s Estate
Plaintiff alleges that in April 2012, during the pen­
dency of the First Will Contest, Charles amended his
will to remove David as an heir. Doc. 3 at 18. After
2 Justin did not join in Plaintiff’s appeal. Doc. 3 at 15,43.

App. 41
Charles died in August 2012, Plaintiff filed the
amended will for probate. Doc. 3 at 18-19. Thereafter,
David, represented by Attorney Pyke, contested the
will (the “Second Will Contest”). Doc. 3 at 19. Plaintiff
alleges that David did so “to destroy the entire amount
of the Estate” through costly litigation. Doc. 3 at 20. In
September 2013, trial was held in Dallas Probate
Court No. 2 before Judge Chris Wilmouth, who denied
Plaintiff’s application for probate. Doc. 3 at 20-21. In
February 2016, the Eighth Court of Appeals reversed
Judge Wilmouth’s ruling, admitted Charles’ amended
will to probate, and awarded Plaintiff costs of the ap­
peal. Doc. 3 at 21-22; see Matter of Kam, 484 S.W.3d
642 (Tex. App. El Paso 2016, pet. denied).
C. The Instant Lawsuit
In February 2018, Plaintiff filed this lawsuit in
which she asserts violations of her Fourteenth Amend­
ment right to due process because the state judges and
justices involved in the Probate Proceedings allegedly
denied her the right to a fair trial. Specifically, Plaintiff
challenges the validity of the judgment entered in the
First Will Contest, arguing: (1) Robert lacked testa­
mentary capacity to execute the Amended Trust, Doc.
3 at 24-27; (2) Attorney Pyke relied on forged evidence
at trial, Doc. 3 at 28-29; (3) Judge Peyton lacked au­
thority to preside over the trial, Doc. 3 at 30-33; and
(4) Judge Peyton improperly denied Plaintiff the right
to question a witness during the rehearing, Doc. 3 at
34-36. Plaintiff also contends she is entitled to the
$10,000.00 she inherited from Robert, and that Judge

App. 42
Peyton’s order that she pay over $200,000.00 in litiga­
tion expenses and court costs is a baseless and “mali­
cious penalty” Doc. 3 at 37-42. As relief, Plaintiff
requests that: (1) Defendants grant her “a Fair Trial,
with a Jury, so [she] may have the opportunity to have
the Malicious Judgment removed,” (2) she “receive
[her] assigned inheritance,” and (3) she be fully reim­
bursed for all legal expenses and court costs incurred
to date. Doc. 3 at 46.
The County and State filed motions to dismiss
Plaintiff’s Original Complaint on March 24, 2018 and
April 6, 2018, respectively. Doc. 24; Doc. 29. Plaintiff
responded to each. Doc. 30; Doc. 31. Only the County
filed a reply.3 Doc. 32.
In its motion to dismiss, the County argues, inter
alia, that the Rooker-Feldman doctrine4 divests this
Court of jurisdiction to hear Plaintiff’s claims. Doc. 29
at 8-10. Upon review, the County’s argument is wellfounded and entirely disposes of Plaintiff’s claims. As
such, the Court need not reach the other arguments
raised by the County or the State of Texas’ motions to
dismiss.
3 Plaintiff filed without leave a “Second Response” to the
County’s reply, which the Court construes as an improperly filed
sur-reply. Doc. 33; see N.D. Tex. L. Civ. R. 56.7 (stating that surreplies may not be filed unless the Court has granted leave to do
so). Because Plaintiff did not seek or obtain leave to file her surreply, the Court will not consider it.
4 The doctrine takes its name from two Supreme Court deci­
sions: D.C. Court ofAppeals v. Feldman, 460 U.S. 462 (1983), and
Rooker v. Fidelity Tr. Co., 263 U.S. 413 (1923).

App. 43
II. APPLICABLE LAW
A court must dismiss a case for lack of subject mat­
ter jurisdiction under Rule 12(b)(1) of the Federal
Rules of Civil Procedure if it lacks the statutory or con­
stitutional power to adjudicate the case. Home Build­
ers Ass’n of Miss., Inc. v. City of Madison, Miss., 143
F.3d 1006,1010 (5th Cir. 1998). As the Court of Appeals
for the Fifth Circuit has succinctly stated:
The Supreme Court has definitively estab­
lished, in what has become known as the
Rooker-Feldman doctrine, that “federal dis­
trict courts, as courts of original jurisdiction,
lack appellate jurisdiction to review, modify, or
nullify final orders of state courts.” “If a state
trial court errs the judgment is not void, it is
to be reviewed and corrected by the appropri­
ate state appellate court. Thereafter, recourse
at the federal level is limited solely to an ap­
plication for a writ of certiorari to the United
States Supreme Court.”
Weekly v. Morrow, 204 F.3d 613, 615 (5th Cir. 2000)
(quoting Liedtke v. State Bar of Tex., 18 F.3d 315, 317
(5th Cir. 1994)). Additionally, the Rooker-Feldman “ju­
risdictional bar is not limited to actions in federal court
that explicitly seek review of a state court decision, but
also extends to those ‘in which the constitutional
claims presented . . . are inextricably intertwined with
the state court’s grant or denial of relief.’” Jordaan v.
Hall, 275 F. Supp. 2d 778, 788 (N.D. Tex. 2003) (Fish,
C.J.) (quoting Hale v. Harney, 786 F.2d 688, 691 (5th
Cir. 1986)). Claims are inextricably intertwined with a

App. 44
state court’s judgment when “the District Court is in
essence being called upon to review the state court de­
cision.” Feldman, 460 U.S. at 482 n.16.
III. ANALYSIS
Plaintiff’s claims stem from the actions of the
judges and justices involved in the Probate Proceed­
ings and, though cast as constitutional claims, amount
to nothing more than a collateral attack on the judg­
ments entered in the Probate Proceedings, in particu­
lar the First Will Contest. See Jordaan, 275 F. Supp. 2d
at 788-89 (when a federal action “is nothing more than
a thinly veiled attempt to circumvent the state appel­
late process and to collaterally attack - in the guise of
a federal civil rights action - the validity of a state
court [judgment] and other related orders,” lower fed­
eral courts lack subject matter jurisdiction over such
action). Plaintiffs insistence that Rooker-Feldman does
not apply because she is “not asking to relitigate [sic]
[her] Case” is unavailing. Doc. 31 at 13. As mentioned
above, Rooker-Feldman not only bars explicit efforts to
review state court rulings, but also claims that are in­
extricably intertwined with those rulings. Jordaan,
275 F. Supp. 2d at 788. In the instant case, Plaintiff’s
federal constitutional claims are premised on accusa­
tions of impropriety on the part of the judges and jus­
tices involved in the Probate Proceedings, and are thus
inextricably intertwined with those judgments. See
Turner v. Cade> 354 F. App’x 108,110-11 (5th Cir. 2009)
(per curiam) (holding that plaintiff’s claims premised
on the allegation that a state court judge conspired and

App. 45
colluded with defendants to deprive her of her consti­
tutional, civil, and property rights were inextricably
intertwined with the state court judgment she com­
plained of); Phinizy v. State ofAla., 847 F.2d 282, 284
(5th Cir. 1988) (plaintiffs claim that the probate
court’s conduct denied her due process was “obviously”
inextricably intertwined with the probate court’s judg­
ment in the state proceeding).
Such intertwining is made all the more apparent
by the relief that Plaintiff seeks in this case, to-wit:
(1) a retrial of the First Will Contest to remove the
“malicious judgment” entered against her; (2) her
$10,000.00 inheritance; and (3) reimbursement of all
litigation expenses incurred thus far. Doc. 3 at 46. To
grant this relief, the Court would have to reverse the
judgment entered in the First Will Contest. See Magor
v. GMAC Mortg, L.L.C., 456 F. App’x 334,336 (5th Cir.
2011) (per curiam) (finding plaintiffs claims were
inextricably intertwined with state court judgment
where reversal of the state court judgment would be a
necessary part of the relief requested in the federal
action); see also Wallace u. Hernandez, No. A-14-CV691-LY, 2015 WL 1020720, at *2 (W.D. Tex. Mar. 9,
2015) (finding plaintiffs’ claims were barred by RookerFeldman where the “essential relief” they sought was
reversal of probate court’s rulings against them),
adopted by 2015 WL 12751504 (W.D. Tex. Apr. 9,2015),
aff’d 631F. App’x 257 (5th Cir. 2016) (per curiam). Con­
sequently, Plaintiff’s only recourse is application for
writ of certiorari to the United States Supreme Court.
Weekly, 204 F.3d at 615. As such, Rooker-Feldman

App. 46
divests this Court of subject-matter jurisdiction and
Plaintiff’s claims should be dismissed without preju­
dice.
IV. LEAVE TO AMEND
Ordinarily, a pro se litigant should be granted
leave to amend her complaint prior to dismissal. Brew­
ster v. Dretke, 587 F.3d 764, 767-68 (5th Cir. 2009) (per
curiam). However, leave need not be granted if the
court determines that the plaintiff has already pleaded
her best case or if the proposed amendment would be
futile. Id.; Stripling v. Jordan Prod. Co., L.L.C., 234
F.3d 863, 872-73 (5th Cir. 2000). While Court has not
previously granted Plaintiff leave to amend, she has
nonetheless done so. On May 14,2018, after briefing on
the motions to dismiss was complete, Plaintiff filed an
Amended Complaint adding Judge Peyton as a defend­
ant.5 See Doc. 34. See Doc. 34. The claims that Plaintiff
asserts therein are essentially identical to the claims
she asserted in her Original Complaint and predicated
6 Because Defendants’ motions to dismiss were filed more
than 21 days before Plaintiff filed her Amended Complaint, Plaintifflacked authority to amend her complaint without Defendants’
consent or the Court’s leave. Fed. R. Civ. P. 15(a)(2). Plaintiff ob­
tained neither. Even if the Court liberally construes Plaintiffs
Amended Complaint as a motion for leave to amend, see e.g., Ja­
cuzzi. Inc, v. Franklin Elec. Co.. Inc.. No. 3:07-CV-1090-D. 2008
WL 2185209. at *4 (N.D. Tex. Mav 27. 20081 (Fitzwater, C.J.), it
has no merit for the reasons discussed infra - the Court lacks ju­
risdiction to hear all the claims pled therein. See Union Planters
Nat’l Leasing. Inc, v. Woods. 687 F.2d 117. 121 (5th Cir. 1982)
(instructing courts to consider, inter alia, “futility of amendment”
when deciding whether to grant leave to amend).

App. 47
on the same factual allegations, namely, her challenge
to the validity of the First Will Content [sic] and the re­
sulting judgment entered by Judge Peyton. See Doc. 34
at 1-10. Thus, for the reasons explained above, the
amended claims also are inextricably intertwined with
a prior state court judgment and accordingly barred by
Rooker-Feldman. Jordaan, 275 F. Supp. 2d at 788. In
light of the futility of Plaintiffs proposed amendments,
the Court concludes that she has simply pleaded her
best case and any additional grant of leave to amend
would cause needless delay. Brewster, 587 F.3d at 76768; Stripling, 234 F.3d at 872-73.
V. CONCLUSION
For the foregoing reasons, Dallas County's Motion
to Dismiss, Doc. 29, should be GRANTED IN PART
and Plaintiffs claims DISMISSED WITHOUT PREJ­
UDICE. Because no other claims will remain, State of
Texas' Motion to Dismiss, Doc. 24, should be DENIED
AS MOOT.
SO RECOMMENDED on May 29, 2018.
/s/ Renee H. Toliver
RENEE HARRIS TOLIVER
UNITED STATES
MAGISTRATE JUDGE

App. 48
INSTRUCTIONS FOR SERVICE AND
NOTICE OF RIGHT TO APPEAL/OBJECT
A copy of this report and recommendation shall be
served on all parties in the manner provided by law.
Any party who objects to any part of this report and
recommendation must file specific written objections
within 14 days after being served with a copy. See 28
U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b). Any objection
must identify the specific finding or recommendation
to which objection is made, state the basis for the ob­
jection, and specify the place in the magistrate judge’s
report and recommendation where the disputed deter­
mination is found. An objection that merely incorpo­
rates by reference or refers to the briefing before the
magistrate judge is not specific. Failure to file specific
written objections will bar the aggrieved party from
appealing the factual findings and legal conclusions of
the magistrate judge that are accepted or adopted by
the district court, except upon grounds of plain error.
See Douglass v. United Services Automobile Ass’n, 79
F.3d 1415,1417 (5th Cir. 1996), modified by statute, 28
U.S.C. § 636(b)(1) (extending the time to file objections
from 10 to 14 days).
/s/ Renee H. Toliver
RENEE HARRIS TOLIVER
UNITED STATES
MAGISTRATE JUDGE

App. 49
CASE NO. PR-11-1368-3
IN THE ESTATE OF § IN PROBATE COURT NO. 3
ROBERTS. RAM,
§
DECEASED
§ DALLAS COUNTY, TEXAS
ORDER DENYING CONTESTANTS’
VERIFIED MOTION FOR NEW TRIAL AND
IN THE ALTERNATIVE MOTION
TO MODIFY THE JUDGMENT
(Filed Oct. 16, 2013)
On October 16,2013, the Court heard Contestants’
Verified Motion for New Trial and in the Alternative
Motion To Modify the Judgment (the “Motions”). Upon
consideration of the Motions, the arguments presented
during the hearing, and the entire record, the Court
has concluded that the Motions should be denied.
IT IS THEREFORE ORDERED that Contestants’
Verified Motion for New Trial and in the Alternative
Motion To Modify the Judgment be, and hereby are,
DENIED.

App. 50
SO ORDERED on this 16th day of October, 2013.
/s/ John B. Peyton
PRESIDING JUDGE
ASSOCIATE JUDGE t
IN AND FOR THE
PROBATE COURTS,
DALLAS COUNTY,
TEXAS

App. 51
CASE NO. PR-11-1368-3
IN THE ESTATE OF § IN PROBATE COURT NO. 3
ROBERTS. RAM,
§
§ DALLAS COUNTY, TEXAS
DECEASED
FINAL JUDGMENT
(Filed Aug. 9, 2013)
On July 22, 2013, this case was called to trial. All
parties appeared through counsel and announced
ready for trial. All parties expressly agreed on the rec­
ord that Associate Judge John B. Peyton is authorized
to decide all issues of fact and all issues of law, his judg­
ment will be deemed the final judgment of Probate
Court Number Three, Dallas, County, Texas, and any
appeal from his judgment will be taken directly to the
Court of Appeals for the Fifth District of Texas at Dal­
las. On July 25,2013, all parties rested their respective
cases, the evidence was closed, and the case was sub­
mitted for decision. Upon careful consideration of the
pleadings, the evidence admitted at trial, the argu­
ments presented by counsel, and the applicable law,
the following rulings are made.
IT IS ORDERED, ADJUDGED, AND DECREED
that Contestants Carol Kam and Justin Kam have
failed to meet their burden of proof on all counts
pleaded by them and accordingly they TAKE NOTH­
ING.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that the application of Contestants Carol

App. 52
Kam and Justin Kam for determination of heirship is
moot and is hereby DISMISSED.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that Contestants Carol Kam and Justin
Kam failed to plead or to prove that their contest of the
Robert S. Kam Trust as Amended and Restated dated
March 17, 2011 and the Second Amendment to the
Robert S. Kam Trust dated March 22, 2011 (hereinaf­
ter collectively referred to as the “Trust Agreement”)
was brought with “probable cause” or that it was
brought and maintained in “good faith,” while Re­
spondents David J. Kam and Robert S. Kam, Jr. both
pleaded and proved that Contestants Carol Kam and
Justin Kam brought and maintained the contest in bad
faith and without probable cause, and consequently
the “No Contest” provisions of Article VIII of the Trust
Agreement shall operate against Contestants Carol
Kam and Justin Kam and all benefits to which they or
their descendants would otherwise be entitled are re­
voked and shall pass as if Contestants Carol Kam and
Justin Kam and their descendants had predeceased
the Settlor, Robert S. Kam.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that the instrument entitled “Trust Agree­
ment Creating Robert S. Kam Trust,” dated February
13, 2011, but apparently signed on February 15, 2011,
and naming Jimmy R. Carter as “Settlor,” is unenforce­
able.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that all actions taken by David J. Kam as

App. 53
Executor of the Estate of Robert S. Kam or as Trustee
of the Robert S. Kam Trust were authorized by statute,
by controlling instrument, or by common law.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that Respondent David J. Kam, Trustee of
the Robert S. Kam Trust, have and recover from Con­
testants Carol Kam and Justin Kam, jointly and sev­
erally, the amount of ONE HUNDRED NINETYEIGHT THOUSAND FOUR HUNDRED DOLLARS
($198,400) for attorneys’ fees and litigation expenses
that were reasonably and necessarily incurred in re­
sponding to the contest of the Trust Agreement and the
action for declaratory judgment by Contestants Carol
Kam and Justin Kam and for recoverable costs.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that Respondent Robert S. Kam, Jr. have
and recover from Contestants Carol Kam and Justin
Kam, jointly and severally, the amount of EIGHT
THOUSAND EIGHT HUNDRED THIRTY-NINE
DOLLARS ($8,839) for attorneys’ fees and litigation
expenses that were reasonably and necessarily in­
curred in responding to the contest of the Trust Agree­
ment and the action for declaratory judgment by
Contestants Carol Kam and Justin Kam and for recov­
erable costs.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that Attorney Ad Litem Nathan K. Griffin
have and recover from the Trustee of the Robert S.
Kam Trust the amount of NINETEEN THOUSAND
THREE DOLLARS AND EIGHTY-EIGHT CENTS

App. 54
($19,003.88) for the reasonable fees of the Attorney Ad
Litem for services necessarily rendered, and for reim­
bursement of expenses reasonably incurred by him, in
the course of fulfilling his duties in this case.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that David J. Kam, as Trustee of the Robert
S. Kam Trust, have and recover from Contestants
Carol Kam and Justin Kam, jointly and severally,
the additional amount of NINETEEN THOUSAND
THREE DOLLARS AND EIGHTY-EIGHT CENTS
($19,003.88) as an award of the fees and expenses to
be paid by the Trustee to the Attorney Ad Litem.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that Respondents David J. Kam, as Trustee
of the Robert S. Kam Trust, and Robert S. Kam, Jr.
have and recover from Contestants Carol Kam and
Justin, Kam, jointly and severally, interest at the rate
of FIVE PERCENT PER ANNUM, which shall accrue
on all monetary relief awarded above from the date of
this Final Judgment until such monetary relief is paid.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that in the event of an unsuccessful appeal
to the Court of Appeals by either Contestant Carol
Kam or Contestant Justin Kam, or by both of them.
Respondent David J. Kam, as Trustee of the Robert S.
Kam Trust, have and recover from whichever of Con­
testants Carol Kam and Justin Kam brings such ap­
peal, and from them jointly and severally if both
bring the appeal, the additional amount of THIRTY

App. 55
THOUSAND DOLLARS ($30,000) for attorneys’ fees
and expenses.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that in the event that a petition for review
of this Final Judgment is filed by either Contestant
Carol Kam or Contestant Justin Kam, or by both of
them, in the Supreme Court of Texas, and such petition
is denied, Respondent David J. Kam, as Trustee of the
Robert S. Kam Trust, have and recover from whichever
of Contestants Carol Kam and Justin Kam files such
petition, and from them jointly and severally if both
file such a petition, the additional amount of TEN
THOUSAND DOLLARS ($10,000) for attorneys’ fees
and expenses.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that in the event that a petition for review
of this Final Judgment is filed in the Supreme Court of
Texas by either Contestant Carol Kam or Contestant
Justin Kam, or by both of them, and such petition is
granted, but the Supreme Court ultimately affirms
this Final Judgment, Respondent David J. Kam, as
Trustee of the Robert S. Kam Trust, have and recover
from whichever of Contestants Carol Kam and Justin
Kam files such petition for review, and from them
jointly and severally if both file such a petition for re­
view, the additional amount of TWENTY THOUSAND
DOLLARS ($20,000) for attorneys’ fees and expenses.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that each of the Respondents have and re­
cover from Contestants Carol Kam and Justin Kam,

App. 56
jointly and severally, all recoverable costs, if any, in­
curred by such Respondent.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that all writs and processes necessary to
enforce this Final Judgment be, and hereby are, au­
thorized and shall issue.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that Attorney Ad Litem Nathan K. Griffin
be, and hereby is, DISCHARGED.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that any and all relief that was requested
by any party to this case, and that is not expressly
awarded in this Final Judgment, be and hereby is DE­
NIED.
DATED AND SIGNED on this
August
2013.

9th

day of

/s/ John B. Peyton
THE HONORABLE
JOHN B. PEYTON
PRESIDING JUDGE

App. 57
United States Court of Appeals
for the Fifth Circuit
No. 21-10127
Carol M. Kam,
Plaintiff—Appellant,
versus
John B. Peyton, Jr.,
Defendant—Appellee.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CV-1447

ON PETITION FOR REHEARING
(Filed Jul. 20, 2021)
Before CLEMENT, HIGGINSON, and ENGELHARDT,
Circuit Judges.
Per Curiam:
IT IS ORDERED that the petition for rehearing is
DENIED.

